BECKER GALLAGHER
Briefs

and

1 Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief for the States of Alaska, Alabama,
Arizona, Arkansas, Indiana, Kansas, Louisiana,
Missouri, Montana, Nebraska, South Carolina, South
Dakota, Tennessee, Texas, Utah, and West Virginia as
Amici Curiae in Support of Petitioners in 20-1786,
JoAnne Troesch and Ifeoma Nkemdi v. Chicago
Teachers Union, Local Union No. 1, American
Federation of Teachers, and The Board of Education of
the City of Chicago, was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 23rd day of July 2021:
William L. Messenger
National Right to Work Legal
Defense Foundation, Inc.
8001 Braddock Road, Suite 600
Springfield, VA 22160
(703) 321-8510
w lm@nrtw.org
Counsel for Petitioners
Thomas Arthur Doyle
Board of Education of the City of Chicago
(Law Department)
1 North Dearborn
9th Floor
Chicago, IL 60602
(773) 553-1720
tadoyle2@cps.edu
Counsel for Respondent
Board of Education of the City of Chicago

(800) 890.5001

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

Joshua B. Shiffrin
Bredhoff & Kaiser PLLC
805 15th Street Northwest
Suite 1000
Washington, DC 20005
(202) 842-2600
j shiffrin@bredhoff.com
Counsel for Respondents
Chicago Teachers Union, et al.

J. Michael Connolly
Counsel of Record
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
mike@consovoymccarthy.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 23, 2021.

===

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/;?-,¥-

~

Notary Public
[seal]

J

